           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



         COMPLIANCE WITH
      POLICIES AND PROCEDURES
         WHEN PROCESSING
     NONCITIZEN SOCIAL SECURITY
      NUMBER APPLICATIONS AT
       FOREIGN SERVICE POSTS

     August 2004   A-08-04-14060




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                        SOCIAL SECURITY

MEMORANDUM

Date:   August 30, 2004                                                                   Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Compliance with Policies and Procedures When Processing Noncitizen Social Security
        Number Applications at Foreign Service Posts (A-08-04-14060)


        OBJECTIVE
        Our objective was to evaluate the Social Security Administration’s (SSA) compliance
        with policies and procedures when processing noncitizen Social Security number (SSN)
        applications at Foreign Service Posts (FSP).1

        BACKGROUND

        SSA Provides                    The Department of State (State) acts as the
        Enumeration Services            representative abroad for SSA. SSA and State have
        Worldwide                       established Federal Benefits Units at FSPs located in
                                        American Embassies and Consulates in certain countries.
                                        SSA assigned managerial and technical experts to State
        to assist it with Social Security responsibilities, including enumeration services.2
        Noncitizens living outside the United States can apply for an SSN at FSPs. FSPs
        operate in the same manner as a domestic field office (FO), except that FSPs without
        access to SSA’s systems forward SSN applications and copies of original evidentiary
        documents to SSA’s Office of International Operations (OIO) in Baltimore, Maryland for
        review and processing.




        1
         For FSPs without SSA systems access, SSA’s Office of International Operations (OIO) completes SSN
        processing.
        2
         SSA refers to the process of assigning original SSNs and issuing replacement SSN cards to people with
        existing numbers as enumeration.
Page 2 – The Commissioner

When a noncitizen applies for an original SSN,3 he or she must complete, sign and
submit a Form SS-5, Application for a Social Security Card, to SSA and provide
acceptable documentary evidence of (1) age, (2) identity, and (3) work authorized lawful
alien status and/or a valid nonwork reason.4 In Fiscal Year 2003, we estimate SSA
assigned about 3,600 original SSNs to noncitizens who applied at FSPs. Appendix B
provides a detailed description of how SSA assigns original SSNs to noncitizens.

Because of SSN integrity concerns, SSA reevaluated its policies and procedures for
assigning SSNs to noncitizens. Accordingly, SSA personnel now verify noncitizen
evidentiary documents with the Department of Homeland Security (DHS) and/or State
before SSN assignment.5 In addition, SSA personnel record a description of
noncitizens’ immigration documents and the verification of these documents on the SSN
application. This information serves as an audit trail by documenting SSA personnel’s
actions taken during SSN application processing.

To accomplish our objective, we reviewed SSA policies and procedures for assigning
original SSNs to noncitizens.6 To evaluate compliance with these policies and
procedures, we identified a population of 338 noncitizens to whom SSA assigned
original SSNs in March 2003 based on applications processed at FSPs. We then
randomly selected and reviewed a sample of 100 SSNs. We also visited the OIO in
Baltimore, Maryland and talked with six Regional Federal Benefits Officers and their
staff by telephone to discuss the policies, procedures, and practices for processing
noncitizen SSN applications. Appendix C includes a detailed description of our scope,
methodology and sample appraisal.

RESULTS OF REVIEW
                                  Although SSA has instituted numerous policies and
    Personnel Did Not Fully       procedures designed to prevent improper SSN
    Comply with Policies and      assignment, they can only be effective if personnel
    Procedures in About           processing SSN applications comply with these
    37 Percent of the             controls. We estimate that FSP and OIO personnel
    Noncitizen SSN                did not fully comply with policies and procedures in
    Applications Processed        about 37 percent of the noncitizen SSN applications
                                  they processed during March 2003. The most
common occurrences of noncompliance were personnel’s failure to document on the
SSN application: (1) a valid reason for a nonwork SSN card and (2) evidence of

3
 Noncitizens who apply for SSNs through the Enumeration at Entry (EAE) program are subject to
different policies and procedures. Under EAE, the State and the Department of Homeland Security
(DHS) collect and transmit to SSA application data as part of the immigration process.
4
    Program Operations Manual System (POMS) sections RM 00202.001A and RM 00203.001C.
5
    SSA fully implemented this policy in September 2002 (Policy Instruction EM-02091).
6
 Policy Instruction EM-02091 contains basic instructions for DHS verification and POMS, section
RM 00200 et. seq., contains general policies and procedures for processing SSNs.
Page 3 – The Commissioner

verification of immigration status with DHS. We identified two instances in which SSA
assigned SSNs to noncitizens that already had an SSN and another instance in which
SSA assigned the same SSN to two individuals. Furthermore, SSA personnel classified
12 percent of our sample applicants as noncitizens, even though evidentiary documents
provided by the applicants showed them to be U.S. citizens. To help ensure
compliance, we believe SSA should consider enhancing controls within the Modernized
Enumeration System (MES) that will prevent SSN assignment when personnel have not
adhered to the controls specified in SSA’s policies and procedures.

PERSONNEL DID NOT FULLY COMPLY WITH POLICIES AND PROCEDURES
WHEN PROCESSING NONCITIZEN SSN APPLICATIONS

We estimate FSP and OIO did not fully comply with SSA policies and procedures when
processing 125 SSN applications for noncitizens in March 2003. This figure represents
about 37 percent of the 338 original SSNs the Agency assigned to noncitizens who
applied at FSPs during this period. This figure is conservative because we did not
determine whether SSA complied with policies and procedures in 16 percent of our
sampled cases (SSA could not locate 4 percent of the SSN applications and
misclassified 12 percent of the sample applicants as noncitizens when evidentiary
documents showed them to be U.S. citizens).

      Figure 1: Estimated Percentage of Compliance with Policies and
                Procedures When Processing Noncitizen SSN Applications



             159 SSNs
                                                                SSA did not comply with
               (47%)                                            policies and procedures


                                                                SSA could not locate the
                                                                SSN Application


                                                                SSA miscoded a U.S.
               41 SSNs                                          citizen as a noncitizen
                (12%)

                                                                SSA complied with policies
                          13 SSNs              125 SSNs         and procedures
                            (4%)                 (37%)
Page 4 – The Commissioner

TYPES OF NONCOMPLIANCE

The most common occurrences of personnel’s noncompliance with policies and
procedures were failure to record on the SSN application: (1) a valid reason for a
nonwork SSN and (2) evidence of verification of immigration status with DHS. Table 1
shows the specific occurrences of noncompliance we identified.
    Table 1: Specific Occurrences of Noncompliance in Sampled Items

                                Characteristics Identified                       Number of
                                                                                Occurrences
     Nonwork reason for SSN not recorded                                            17
     Verification of immigration status with DHS not recorded                        8
     Applicant identity document not recorded                                        5
     Alien or admission number not recorded                                          3
     Country of passport not specified                                               2
     SSA employee did not sign the SSN application                                   2
     SSA improperly assigned SSNs to noncitizens that already had an SSN             2
     Documentation of lawful alien status not recorded                               1
     Identification for individual applying on behalf of another not recorded        1
     SSA assigned same SSN to two individuals                                        1

     Number of occurrences identified                                               42
     Multiple occurrence (more than one occurrence per case)                         5
     Number of SSNs in sample not in compliance with policies and procedures        37
     Percentage of noncompliance cases to sample (37/100)                           37%

We believe the following instances of personnel’s noncompliance with policies and
procedures illustrate SSA’s risk of exposure to improper SSN assignment and misuse.

      •   An employee processed two SSN applications for noncitizens who already had
          SSNs. Because this employee did not follow policies and procedures, SSA
          improperly assigned these SSNs.

      •   An employee processed SSN applications for twins with the same identifying
          information (except for the middle names). The employee did not forward the
          SSN application to SSA headquarters for review and manual processing, as
          required by policies and procedures.7 Furthermore, the employee did not record
          a description of the identification document for the parent applying on behalf of
          the children. Because the employee did not follow policies and procedures, SSA
          improperly assigned the same SSN to both children.

      •   An individual applied for a nonwork SSN on behalf of a child, who needed the
          SSN to receive SSA survivor benefits. The SSA employee did not record, on the
          SSN application, the individual’s relationship to the child. The SSA employee
          listed a passport as one of the evidentiary documents reviewed, but did not
          indicate whether this document belonged to the individual or child. Furthermore,

7
    POMS RM 00204.275.
Page 5 – The Commissioner

         the employee did not list the SSN of the individual under whose SSA account the
         child was filing for benefits. Because the employee did not comply with policies
         and procedures, SSA did not have documented assurance that it assigned the
         SSN to the proper individual.

PERSONNEL MISCLASSIFIED U.S. CITIZENS AS NONCITIZENS

SSA personnel classified 12 percent of the applicants in our sample as noncitizens,
even though evidentiary documents provided by the applicants showed them to be U.S.
citizens. For these cases, the SSA employee recorded, on the SSN application, that the
applicant provided a Form FS-240, Consular Report of Birth Abroad of a Citizen of the
United States of America, which is acceptable evidence of U.S. citizenship according to
SSA’s policies and procedures.8 Additionally, SSA assigned nonwork SSNs to seven of
these individuals. Misclassification of citizenship not only causes problems for SSN
applicants, but creates additional work for SSA when these individuals visit an SSA
office to have their citizenship and work authorization status corrected and/or when they
file for SSA benefits.

OPPORTUNITY TO HELP ENSURE COMPLIANCE WITH POLICIES AND
PROCEDURES

When SSA personnel do not fully comply with all policies and procedures for processing
noncitizen SSN applications, the Agency increases its risk of improper SSN assignment
and misuse. While SSA’s MES allows personnel to record evidence reviewed and
accepted, as required by policies and procedures, it does not prevent SSN assignment
when personnel do not enter this information into the system. For example, although
policies and procedures require SSA personnel to record, on the SSN application, a
description of the immigration documents presented and reviewed and DHS verification,
MES does not prevent SSN assignment if they fail to record this information.9

To help ensure compliance with policies and procedures, we believe SSA should
consider MES enhancements that would prevent SSN assignment when personnel do
not comply with the Agency’s policies and procedures. SSA could incorporate separate
and distinct data fields into MES that would capture specific evidence reviewed and
accepted. That is, SSA could change the MES evidence field from a free-form entry
format to one requiring discrete entries (for example, a noncitizen’s immigration number
and class of admission, and specific immigration documents reviewed and verified with
DHS). We believe MES controls should prevent SSN assignment when personnel do

8
    POMS, section RM 00203.310B.
9
 A recent Government Accountability Office (GAO) study, entitled Social Security Administration: Actions
Taken to Strengthen Procedures for Issuing Social Security Numbers to Noncitizens, but Some
Weaknesses Remain (GAO-04-12, October 2003) pointed out that it is possible for FO staff to process an
SSN application without keying information into MES describing the evidence staff reviewed and
accepted. Under this situation, there is no consistent means for SSA to confirm and review what
verifications FO staff actually performed when they processed an SSN application.
Page 6 – The Commissioner

not enter such information. Such controls would assist SSA personnel through the SSN
application process and help prevent improper SSN assignment.

Management and staff at the FSPs and OIO agreed that MES enhancements, as
discussed above, would assist personnel in complying with policies and procedures.
SSA has discussed plans to modify MES to capture more discrete information about the
evidence submitted during the SSN application process. We understand that such
modifications must be considered as part of the Agency’s information technology
prioritization process. Nevertheless, we encourage the Agency to begin the systems
planning process for MES enhancements.

CONCLUSIONS AND RECOMMENDATIONS
Despite SSA’s safeguards to prevent improper SSN assignment to noncitizens, the
Agency remains at risk to such activity when SSA personnel do not fully comply with
policies and procedures. We recognize SSA’s efforts can never fully eliminate the
potential that noncitizens may inappropriately acquire and misuse SSNs. Nonetheless,
we believe SSA has a stewardship responsibility to ensure that personnel comply with
all policies and procedures. We believe SSA would benefit by taking additional steps to
strengthen SSN integrity and reduce its risk of exposure to improper SSN assignment
and misuse, and identity theft.

In a separate report, we recommended that SSA take additional steps to ensure that FO
personnel comply with policies and procedures when processing noncitizen SSN
applications. Because these recommendations address the noncompliance issues we
identified at FSPs and OIO, we are not repeating these recommendations in this report.
Appendix D provides the recommendations from our report on FOs’ compliance with
policies and procedures when processing noncitizen SSN applications.

However, because we also identified instances in this audit in which SSA improperly
(1) assigned SSNs to 2 applicants who already had SSNs, (2) assigned the same SSN
to twins and (3) classified 12 U.S. citizens as noncitizens, we are making the following
additional recommendations in this report. We will provide the detail for these
occurrences under separate cover.

We recommend SSA:

   1. Cross-reference the new and existing SSN records for the two applicants who
      received second SSNs.

   2. Assign a unique SSN to one of the twins to whom SSA improperly assigned the
      same number as the other twin.

   3. Correct the Numident records for the 12 U.S. citizens who SSA classified as
      noncitizens.
Page 7 – The Commissioner

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. Additionally, a number of the noncompliance
issues identified for the FSPs were the same as those identified in our other audit
reports regarding field office (Appendix D) and the Brooklyn Social Security Card
Center’s (A-08-04-14061) enumeration compliance. Accordingly, the Agency stated it
will ensure that FSPs are included in any corrective action activities planned in
response to the recommendations made in those reports. The Agency also provided
technical comments that we considered and incorporated, where appropriate. The full
text of SSA’s comments is included in Appendix E. We believe the Agency’s actions
demonstrate its commitment to strengthen the integrity of the SSN.




                                             S
                                             Patrick P. O'Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – How the Social Security Administration Assigns Original Social Security
             Numbers to Noncitizens

APPENDIX C – Scope, Methodology, and Sample Appraisal

APPENDIX D – Recommendations from our Report Entitled Field Offices’ Compliance
             with Policies and Procedures When Processing Noncitizen Social
             Security Number Applications (A-08-04-14005)

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
ASVI    Alien Status Verification Index
DHS     Department of Homeland Security
State   Department of State
EAE     Enumeration at Entry
FO      Field Office
FSP     Foreign Service Post
GAO     Government Accountability Office
MES     Modernized Enumeration System
OIO     Office of International Operations
POMS    Program Operations Manual System
SSA     Social Security Administration
SSN     Social Security number
                                                                                   Appendix B

How the Social Security Administration Assigns
Original Social Security Numbers to Noncitizens
When a noncitizen applies for an original Social
Security number (SSN), he or she must complete,
sign and submit a Form SS-5, Application for a
Social Security Card, to the Social Security
Administration (SSA) and provide acceptable
documentary evidence of (1) age, (2) identity, and
(3) work authorized lawful alien status and/or a valid nonwork reason.1

SSA personnel verify documents through (1) visual inspection, including the use of a
black light where appropriate and (2) verification with the Department of Homeland
Security (DHS), either on-line or manually. If documents do not appear valid, then SSA
personnel send Form G-845, Document Verification Request, along with photocopies of
the applicant-provided documents, to DHS. If documents appear valid, SSA personnel
query DHS’ Alien Status Verification Index (ASVI) database2 to verify the immigration
and work status of noncitizens.3 If ASVI information is not available, SSA personnel
send Form G-845 to DHS. In addition, SSA personnel record noncitizens’ immigration
documents and the verification of these documents (either the ASVI verification number
or annotation of “G-845 verified”) on the SSN application.

SSA personnel enter SSN information into SSA’s Modernized Enumeration System
(MES). SSN applications awaiting verification of DHS immigration status are coded with
an “S” for suspect. After determining the validity of supporting evidentiary documents,
SSA personnel sign and date the SSN application and clear the application in MES.
Once certified and cleared, MES performs numerous automated edits to validate certain
applicant information. If the application passes these edits, SSA systems assign an
SSN, issue an SSN card, and establish a record in SSA’s information systems.4




1
    Program Operations Manual System (POMS) sections RM 00202.001A and RM 00203.001C.
2
  The ASVI on-line database is a part of DHS’ Systematic Alien Verification for Entitlements program, an
intergovernmental information-sharing initiative designed to aid various agencies in determining a
noncitizen’s immigration status.
3
 SSA employees have two additional sources to verify refugee and asylee status: the Department of
State Worldwide Refugee Admissions Processing System and the Executive Office for Immigration
Review.
4
  The Numident file houses records of SSN cards issued over an individual’s lifetime, as well as
identifying information such as age, place of birth, and parent’s names.


                                                   B-1
Description of Evidentiary Documents

Along with an SSN application, noncitizens must present two documents that establish
age, identity, and work authorized lawful alien status or a valid nonwork reason for an
SSN. If the DHS document is used to establish noncitizen status and age, the
noncitizen must provide another document, such as a passport or driver’s license, to
establish identity. An individual signing the SSN application on behalf of another (for
example, a parent for his/her child) must establish his/her own identity.5

DHS issues numerous documents that indicate the status and class of noncitizens.
Following is a description of the general evidence requirements (not all-inclusive)
submitted with original SSN applications.

Lawfully Admitted for Permanent Residence are lawful immigrants who are residing
permanently in the United States with the authorization of DHS. Acceptable evidence of
this status includes the I-551, Alien Registration Receipt Card, commonly known as the
“Green Card,” and I-688, Temporary Resident Card.6

Nonimmigrants are temporary lawful residents to whom DHS grants limited stay in the
United States for a specific purpose, such as foreign Government officials, visitors, and
students. DHS issues an I-94 Arrival/Departure Record to all documented noncitizens.7
DHS also issues employment authorization documents to certain nonimmigrants as
evidence of their authorization to work in the United States.8 SSA has additional SSN
documentation requirements for certain classes of nonimmigrants. For example, to be
eligible for an SSN, an F-1 post-secondary student must provide, in addition to evidence
of age and identity, an I-20 ID (Student) Copy, Certificate of Eligibility for Nonimmigrant
(F-1) Student Status, from an accredited school, a current I-94, and evidence of
authorization to work on-campus and full-time school attendance.9

Asylees, refugees, and parolees come to the United States because of persecution or
emergency conditions. Form I-94, with the proper annotations, is acceptable evidence
of aslyee, refugee or parolee status. In cases when such individuals have no
documentation other than his/her DHS document, SSA will accept such documentation
(an exception to the two document requirement).10



5
    POMS, section RM 00203.200A.
6
    POMS, section RM 00203.410.
7
    POMS, section RM 00203.450.
8
    POMS, section RM 00203.500.
9
    SSA Policy Instruction EM-02093.
10
     POMS, section RM 00203.460 and RM 00203.020.


                                               B-2
                                                                        Appendix C

Scope, Methodology, and Sample Appraisal
We obtained a data extract from the Social Security Administration’s (SSA) Modernized
Enumeration System (MES) Transaction History File for March 2003. From this extract,
we identified a population of 338 noncitizens to whom SSA assigned original Social
Security numbers (SSN) for SSN applications processed by Foreign Service Posts
(FSP) and the Office of International Operations (OIO). From this population, we
randomly selected and reviewed a sample of 100 SSNs. For each of the sampled
SSNs, we

   •   requested from SSA a microfiche copy of Form SS-5, Application for a Social
       Security Card, including all information recorded at the bottom of the form;

   •   determined whether SSA personnel followed applicable policies and procedures
       when processing the SSN application; and

   •   independently verified the applicant’s immigration status with the Department of
       Homeland Security (DHS). We verified the Alien registration number or
       Admission number via DHS’ Alien Status Verification Index (ASVI) database.
       Additionally, we manually verified with DHS those records where ASVI displayed
       exceptions or SSA personnel failed to record an evidence description on the SSN
       application. We did not conduct an independent assessment of the quality of
       DHS’ records.

As part of this audit, we also visited OIO in Baltimore, Maryland. We met with
management and staff to obtain their views on the Agency’s policies, procedures, and
practices for processing noncitizen SSN applications. We also interviewed, by
telephone, Regional Federal Benefits Officers and their staff located in: Ciudad Juarez,
Mexico; Athens, Greece; Frankfurt, Germany; Manila, Philippines; London, England;
and Rome, Italy to obtain their views on the Agency’s policies, procedures and practices
for processing noncitizen SSN applications.

The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We relied primarily on MES to complete our review, and determined that the MES data
used in the report is sufficiently reliable given the audit objective and use of the data.
We conducted our work from May 2003 through February 2004 in accordance with
generally accepted government auditing standards.




                                          C-1
Table 1 shows our sample size, results, and appraisal.
Table 1: Results and Projection

                            SAMPLE ATTRIBUTE APPRAISAL
 Total population of original SSNs assigned to noncitizens from SSN
                                                                       338
 applications processed at FSPs and OIO
 Sample size                                                           100

 Number of instances in sample where FSP and OIO personnel did not
                                                                        37
 comply with policy and procedures
 Estimate of instances in population where FSP and OIO personnel did
                                                                       125
 not comply with policy and procedures
 Projection lower limit                                                101
 Projection upper limit                                                150

Projection made at the 90-percent confidence level.




                                         C-2
                                                                      Appendix D

Recommendations from our Report Entitled:
Field Offices’ Compliance with Policies and
Procedures When Processing Noncitizen Social
Security Number Applications (A-08-04-14005)
1. Reemphasize to field office (FO) personnel the importance of following all policies
   and procedures, including the use of black lights to detect counterfeit documents,
   when processing Social Security number (SSN) applications from noncitizens.

2. Conduct periodic studies to assess FO compliance with policies and procedures for
   processing noncitizen SSN applications and take corrective action as needed.

3. Consider Modernized Enumeration System enhancements that would prevent SSN
   assignment to noncitzens when FO personnel do not comply with policies and
   procedures.
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM                                                                      34141-24-1261


Date:      August 4, 2004                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Compliance with Policies and Procedures
           When Processing Noncitizen Social Security Number Applications at Foreign Service Posts" (A-
           08-04-14060)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "COMPLIANCE WITH POLICIES AND PROCEDURES WHEN
PROCESSING NONCITIZEN SOCIAL SECURITY NUMBER (SSN) APPLICATIONS
AT FOREIGN SERVICE POSTS (FSP)" (A-08-04-14060)


Thank you for the opportunity to comment on the draft report. We appreciate OIG’s continuing
efforts to evaluate the integrity of our enumeration process. We are also pleased that the
erroneous SSN assignments identified in this report were not indicative of fraud.

Our Office of Central Operations has taken a proactive role to address specific compliance issues
with Foreign Service National (FSN) and the Office of International Operations (OIO) staff by: 1)
providing additional technical support; 2) reporting the specific findings of this report to the FSPs;
3) providing reminder items on areas that need improvement; and 4) including enumeration
policies and procedures topics during FSN training seminars. Efforts to monitor accuracy in this
area include having FSPs perform periodic reviews. In addition, our Center for Program Support
(CPS) is planning to conduct operational reviews in this area.

Since a number of noncompliance issues identified for the FSPs were the same as those
identified in the Field Office (Audit No. A-08-04-14005) and Brooklyn Social Security Card
Center's (Audit No. A-08-04-14061) compliance reports, we will ensure that the FSPs are
included in any corrective action activities planned in response to the recommendations made in
those reports.

Because the review of the enumeration process at FSPs identified instances in which staff
improperly assigned SSNs to applicants who already had SSNs, assigned the same SSN to a set
of twins, and classified U.S. citizens as noncitizens, we are taking additional steps to address
those specific issues. A description of the actions we have already taken or plan to take as well
as some technical comments are provided below.

Recommendation 1

SSA should cross-reference the new and existing SSN records for the two applicants who
received second SSNs.

Response

We agree. Corrective action was taken in November 2003.




                                                 E-2
Recommendation 2

Assign a unique SSN to one of the twins to whom SSA improperly assigned the same number as
the other twin.

Response

Currently the MBR reflects that the beneficiary record upon which the SSN was issued is in non-
payment status (i.e., alien suspension status). Therefore, we are not assigning a unique SSN at this
time as it is unlikely that benefits will be paid. We have taken corrective action to remove
erroneous data from the Numident record.

Recommendation 3

Correct the Numident records for the 12 U.S. citizens who SSA classified as noncitizens.

Response

We agree. Corrective action was taken in June 2004




                                                E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

   Ellen Justice, Auditor

   Susan Phillips, Auditor

   Brennan Kraje, Statistician

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-08-04-14060.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
